4/28/2016

visaagreement




MENU


(../login.htm)
LOGIN


(https://cypruscu.com/contact/branchlocations.shtml)

LOCATIONS

Visa Credit/Debit Card
Agreement
This Agreement covers your VISA Platinum Credit Card,
Platinum Awards Credit Card, Business Platinum Credit Card
and/or VISA Debit Card with Cyprus Federal Credit Union. In this
Agreement the words you and your mean each and all of those
who use or sign a card. We, us and ours mean Cyprus Credit
Union. Card and/or Credit card means the VISA Platinum Card,
VISA Platinum Awards Card, Business Platinum Card and/or VISA
Debit Card and any duplicates and renewals we issue. Account
means your VISA Platinum Card Line of Credit account, VISA
Platinum Awards Line of Credit account, VISA Business Platinum
Line of Credit account and/or VISA Debit Overdraft Line of
Credit account with us. You agree that if you receive, sign,
request, use or permit others to use or sign any of the cards
issued under this Agreement, that you have accepted and
agreed to all of the following terms, as amended from time to
time. You agree to all procedures required by us or any
merchant which honors your card as well as all terms on the

https://cypruscu.com/rates/visaagreement.shtml

1/13

4/28/2016

visaagreement

merchant which honors your card as well as all terms on the
card. Any plural term used in this Agreement shall be deemed
singular if context and construction so require. Any singular
term used in this Agreement shall be deemed plural if context
and construction so require.
1. Responsibility. If we issue you a card, you agree to repay
all amounts due and the FINANCE CHARGE arising from
the use of the card and the card account. You are
responsible for charges made by yourself, your spouse and
minor children. You are also responsible for charges made
by anyone else to whom you give the card, and this
responsibility continues until the card is recovered. You
cannot disclaim responsibility by notifying us, but we will
close the account for new transactions if you so request
and return all cards. Your obligation to pay the account
balance continues even though an agreement, divorce
decree, or other court judgment may direct you or one of
the other persons responsible to pay the account. Any
person using the card is jointly responsible with you for
charges he or she makes and any fees, but if that person
signs the card, he or she becomes a party to this
Agreement and is also jointly responsible for all charges
on the account, including yours.
2. Lost Card Noti cation. If you believe the Card has been lost
or stolen, IMMEDIATELY CALL THE CREDIT UNION at: 801260-7600, 1-800-929- 7787 during regular business hours
or 1-800-682-6075 after hours. If your PIN has been
compromised, call 1-888-241-2400. A fee may be assessed
for replacement of each lost card. Refer to the fee
schedule.
3. Your Liability for Unauthorized Use. If you believe your
Card or your PIN has been lost or stolen or that someone
has transferred or may transfer money from your account(s)
without your permission, tell us AT ONCE. Telephoning is

the best
https://cypruscu.com/rates/visaagreement.shtml

way of keeping your potential losses down.

2/13

4/28/2016

visaagreement

the best way of keeping your potential losses down.
4. Credit Line. We have established a self-replenishing VISA
Credit Card Line of Credit or VISA Debit Card Line of Credit
for you and have noti ed you of its amount when we
issued the card or on your statement. You agree not to let
the account balance exceed this approved Credit Line. Each
payment you make on the account will restore your Credit
Line by the amount of the payment which is applied to
principal. You may request an increase in your Credit Line
by contacting us, and approval by a loan of cer. By giving
you written notice we may reduce your Credit Line from
time to time, or with good cause, revoke your card and
Credit Line. Good cause includes your failure to comply
with this Agreement, or our adverse reevaluation of your
creditworthiness. You may also terminate this Agreement
at any time, but termination by either of us does not affect
your obligation to pay all the amounts due plus FINANCE
CHARGES. The card(s) remain our property and you must
recover and surrender to us all cards upon our request and
upon termination of this Agreement, or pay necessary
recovery costs incurred by us.
5. Credit Information. You authorize us to investigate your
credit standing when opening, renewing, or reviewing your
account. You authorize us to disclose information
regarding your account to credit reporting agencies and
creditors who inquire of us about your credit standing.
6. Monthly Payment. We will mail you a statement every
month showing your Previous Balance of purchases and
cash advances for Credit Card and withdrawals for VISA
Debit card, the current transactions on your account, the
remaining credit available under your Credit Line, the New
Balances of purchases and VISA Credit Card cash advances
and VISA Debit withdrawals, the Total New Balance, the
FINANCE CHARGE, any other billed fees, and the Minimum
Payment required. Your statement will show the required
https://cypruscu.com/rates/visaagreement.shtml

3/13

4/28/2016

visaagreement

payment you must make for that statement and the date it
is due. By separate agreement you may authorize us to
charge the minimum payment automatically to your Share
Savings or Checking Account with us. You may pay more
frequently, pay more than the Minimum Payment or pay
the Total New Balance in full, and you will reduce the
FINANCE CHARGE by so doing. a. VISA Credit Card Monthly
Payment. Every month you must pay at least the Minimum
Payment upon receipt of your statement. The Minimum
Payment will be either (a) 3% of your Total New Balance, or
$25.00, whichever is greater; or (b) your Total New
Balance, if it is less than $25.00, plus any portion of the
Minimum Payment(s) shown on prior statement(s) which
remains unpaid. In addition, if at any time your total New
Balance exceeds your Credit Line, you must immediately
pay the excess amount. We will apply your payments rst
to the FINANCE CHARGE on both purchases and cash
advances, then to any billed fees, then to the principal
balance of purchases and cash advances. b. VISA Debit
Card Monthly Payment. The Minimum Payment will be
either (a) 3% of your Total New Balance, or $25.00,
whichever is greater; or (b) your Total New Balance, if it is
less than $25.00, plus any portion of the Minimum
Payment(s) shown on prior statement(s) which remains
unpaid. In addition, at any time your total New Balance
exceeds your Line of Credit, you must immediately pay the
excess amount. We will apply your payments rst to the
FINANCE CHARGE on both purchases and withdrawals,
then to any billed fees, then to the principal balance of
purchases and withdrawals.
7. Finance Charges. a. VISA Credit Card. You can avoid
FINANCE CHARGES on purchases by paying the statement
balance in full each month within 25 days of the statement
closing date. If you pay part of the purchases included in
the statement balance within 25 days of the statement
https://cypruscu.com/rates/visaagreement.shtml

4/13

4/28/2016

visaagreement

the statement balance within 25 days of the statement
closing date, FINANCE CHARGES will not apply to the
amount paid. However, cash advance fees may still apply. If
the payment due date falls on a non-business day,
payment must be received by the last business day prior to
the due date. VISA Credit Card / VISA Debit Card
Agreement No Cyprus Credit Union employee or agent will
request a cardholder to divulge their PIN in an oral or
written manner. You may be subject to a xed rate or
variable rate of interest. The applicable rate will be
disclosed to you on your Disclosure Statement and
monthly statements. Interest is calculated by multiplying
the applicable daily interest rate times the average daily
balance of purchases and cash advances. The daily interest
rate is calculated by dividing the applicable rate by 365.
The principal balances of purchases and cash advances are
determined each date during the statement period
beginning with the principal portion of your Previous
Balances, reduced by payments you make and credits we
apply, and increased by purchases and cash advances you
make and debit adjustments we make during the
statement period. The daily principal balances are totaled
and divided by the number of days in the statement period.
This produces separate average daily principal balances for
purchases and cash advances to which the daily periodic
rate is applied. The variable rate is the Wall Street Journal
Prime Rate published on the last day of the month plus a
margin. The margin for the VISA Platinum and VISA
Platinum Awards is based on your credit risk and will be
disclosed to you on your Disclosure Statement. The
maximum variable ANNUAL PERCENTAGE RATE is the
highest legal rate. The maximum increase or decrease your
rate can change per calendar year is 3.0%. b. Business Visa
Platinum Card. You can avoid FINANCE CHARGES on
purchases and cash advances by paying the statement
balance in full each month within 25 days of the statement

https://cypruscu.com/rates/visaagreement.shtml

5/13

4/28/2016

visaagreement

balance in full each month within 25 days of the statement
closing date. If the payment due date falls on a nonbusiness day, payment must be received by the last
business day prior to the due date. Otherwise, FINANCE
CHARGES will be assessed beginning from the previous
month’s transaction posting date, through the current
month’s statement closing date. A cash advance fee of
1.5% of the cash advance will be charged to your account
for each cash advance. This cash advance fee also applies
to withdrawals made from your VISA account through
automatic teller machines and other means. Your variable
rate interest is calculated by multiplying the applicable
variable daily rate times the average daily balance of
purchases and cash advances. The variable rate is Wall
Street Journal Prime Rate published on the last day of the
month plus a margin. The margin for the Business Visa
Platinum Card is as low as 6%. The daily rate is calculated
by dividing the applicable variable rate by 365. The
principal balances of purchases and cash advances are
determined each day during the statement period,
beginning with the principal portion of your Previous
Balances, reduced by payments you make and credits we
apply, and increased by purchases and cash advances you
make and debit adjustments we make during the
statement period. The daily principal balances are totaled,
and divided by the number of days in the statement period,
to produce separate average daily principal balances for
purchases and cash advances to which the periodic rate is
then applied. c. VISA Debit card. Your interest is calculated
by multiplying the applicable daily rate times the average
daily balance of purchases and withdrawals. The xed rate
is as low as 12.99%. The daily rate is calculated by dividing
the applicable rate by 365. The principal balances of
purchases and withdrawals are determined each day
during the statement period, beginning with the principal

https://cypruscu.com/rates/visaagreement.shtml

6/13

4/28/2016

visaagreement

portion of your Previous Balances, reduced by payments
you make and credits we apply, and increased by purchases
and withdrawals you make and debit adjustments we make
during the statement period
8. Default. You will be in default if you fail to make any
Minimum Payment within 10 days after your statement due
date. You will also be in default if your ability to repay us
is materially reduced, you are a debtor in a bankruptcy or
insolvency proceedings, you pass away, you fail to abide by
this Agreement or if the value of our security interest
materially declines. We have the right to demand
immediate payment of your full account balance if you
default. To the extent permitted by law, you will also be
required to pay our collection expenses, including court
costs and reasonable attorneys’ fees.
9. Using the Card. To make a purchase or cash advance, there
are several methods for use of the card. You may present
the card to a participating VISA plan merchant, to us, or to
another nancial institution. You may complete the
transaction by using your Personal Identi cation Number
(PIN) in conjunction with the card in an Automated Teller
Machine or other type of electronic terminal that provides
access to the VISA system. You may provide your VISA card
information to merchants either by phone or by mail. The
monthly statement will identify the merchant, electronic
terminal, or nancial institution at which transactions were
made, but sales, cash advance, credit or other slips cannot
be returned with the statement. The Credit Union may
make a reasonable charge for photo copies of documents
you request.
10. Returns and Adjustments. a. VISA Platinum Credit Card,
VISA Platinum Awards Credit Card, Business Platinum
Credit Card. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so
by sending us a credit slip which we will post to your
https://cypruscu.com/rates/visaagreement.shtml

7/13

4/28/2016

visaagreement

by sending us a credit slip which we will post to your
account. If your credits and payments exceed what you
owe us, we will hold and apply this credit balance against
future purchases and cash advances, or if it is $1.00 or
more, refund it upon your written request. b. VISA Debit
card. Merchants and others who honor the Card may give
credit for returns or adjustments, and they will do so by
sending us a credit slip which we will post to your
Checking Account.
11. Foreign Transactions. Purchases and cash advances made
in foreign countries and foreign currencies will be billed to
you in U.S. Dollars. The conversion rate will be made in
accordance with the operating regulations for international
transactions established by VISA International, Inc. VISA
has the right to assess a Foreign Conversion Fee. This fee
could be up to 1.5% of the transaction amount
12. Plan Merchant Disputes. We are not responsible for the
refusal of any plan merchant or nancial institution to
honor your card. We are subject to claims and defenses
(other than tort claims) arising out of goods and services
you purchase with the card only if you have made a good
faith attempt, but have been unable to obtain satisfaction
from the plan merchant, and: (a) your purchase was made
in response to an advertisement we sent or participated in
sending you; or (b) your purchase cost more than $50.00
and was made from a plan merchant in your state or within
100 miles of your home. Any other disputes you must
resolve directly with the plan merchant.
13. Cross Collateral Agreement. You hereby pledge as security
for the Line of Credit, any collateral that you have pledged
as security on any other existing loan or advance at the
credit union or which you will pledge as security in the
future. Understand that this is referred to as a cross
collateral agreement, and that you knowingly and
voluntarily grant the credit union the foregoing described
security interests.

https://cypruscu.com/rates/visaagreement.shtml

8/13

4/28/2016

security interests.

visaagreement

14. Lien and Right to Setoff. You hereby grant us a lien and
right to setoff on all shares and accumulated dividends in
any individual, joint, multiple party, or transaction
accounts. The Credit Union shall have a statutory lien and
right of setoff in all shares and accumulated dividends in
all individual, joint, multiple party, or transaction accounts
in which any of you has any interest. We may exercise our
lien rights without No Cyprus Credit Union employee or
agent will request a cardholder to divulge their PIN in an
oral or written manner. notice. The lien hereby created
shall be a lien on the future amount in any accounts and is
a possessory lien.
15. Effect of Agreement. This Agreement is the contract which
applies to all transactions on your account even though
the sales, cash advance, credit or other slips you sign or
receive may contain different terms. We may amend this
Agreement from time to time by sending you the advance
written notice as required by law. To the extent the law
permits, and we indicate in our notice, amendments will
apply to your existing account balance as well as to future
transactions.
16. Annual Fee. No annual fees are charged for VISA Credit or
Debit cards.
17. Late Charge. A late charge of 5% of the payment or $25
whichever is greater, shall be charged on any payment or
partial payment not made within 10 days after its due
date.
18. Final Expression. This agreement is the nal expression of
the terms of this Card and Account between Cyprus Credit
Union and the member(s)/borrower(s)/ user(s); this written
Agreement may not be contradicted by evidence of any
alleged oral agreement.
19. Illegal Transaction. Cards cannot be used for online
gambling or any other illegal activity. The card issuer
https://cypruscu.com/rates/visaagreement.shtml

9/13

4/28/2016

visaagreement

cannot be held liable for these transactions.
20. Your Billing Rights. The following is important information
about your rights and our responsibilities under the Fair
Credit Billing Act. Notify Us in Case of Errors or Questions
About Your Bill. If you think your bill is wrong, or if you
need more information about a transaction on your bill,
write us on a separate sheet at the address listed on your
bill. Write to us as soon as possible, We must hear from
you no later than 60 days after we sent you the rst bill on
which the error or problem appeared. You can telephone
us, but doing so will not preserve your rights. In your letter
give us the following information: • Your name and
account number. • The dollar amount of the suspected
error. • Describe the error and explain, if you can, why you
believe there is an error. • If you need more information,
describe the item you are not sure about. • If you have
authorized us to pay your credit card bill automatically
from your share savings or checking account, you can stop
the payment on any amount you think is wrong. To stop
the payment your letter must reach us three business days
before the automatic payment is scheduled to occur. Your
Rights and Our Responsibilities After We Receive Your
Written Notice. We must acknowledge your letter within 30
days, unless we have corrected the error by then. Within 90
days, we must either correct the error or explain why we
believe the bill was correct. After we receive your letter, we
cannot try to collect any amount you question, or report
you as delinquent. We can continue to bill you for the
amount you question, including nance charges, and we
can apply an unpaid amount against your credit limit. You
do not have to pay any questioned amount while we are
investigating, but you are still obligated to pay the parts of
your bill that are not in question. If we nd that we made a
mistake on your bill, you will not have to pay any nance
charges related to any questioned amount. If we didn’t
https://cypruscu.com/rates/visaagreement.shtml

10/13

4/28/2016

visaagreement
charges related to any questioned
amount. If we didn’t

make a mistake, you may have to pay nance charges, and
you will have to make up any missed payments on the
questioned amount. In either case, we will send you a
statement of the amount you owe and the date that it is
due. If you fail to pay the amount that we think you owe,
we may report youas delinquent. However, if our
explanation does not satisfy you and you write to us within
ten days telling us that you still refuse to pay, we must tell
anyone we report you to that you have a question about
your bill. And, we must tell you the name of anyone we
reported you to. We must tell anyone we report you to that
the matter has been settled between us when it nally is.
If we don’t follow these rules, we can’t collect the rst
$50.00 of the questioned amount, even if your bill was
correct. Special Rule for Credit Card Purchases. If you have
a problem with the quality of property or services that you
purchased with a credit card, and you have tried in good
faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
property or services. There are two limitations on this
right: (a) You must have made the purchase in your home
state, or if not within your home state, within 100 miles of
your current mailing address; and (b) The purchase price
must have been more than $50.00. These limitations do
not apply if we own or operate the merchant, or if we
mailed you the advertisement for the property or services.
21. VISA Platinum Awards Credit Card Extra Awards Bene ts.
The Credit Union reserves the right to make changes to the
VISA Platinum credit card Extra Awards bene ts.
22. Copy received. You acknowledge receipt of a copy of this
agreement.
23. Shares Secured. If this is a share secured VISA account, all
amounts in any accounts at the Credit Union are pledged
and assigned as security for any amounts owed. A speci c
amount may be held as security and cannot be withdrawn.

https://cypruscu.com/rates/visaagreement.shtml

11/13

4/28/2016

visaagreement

amount may be held as security and cannot be withdrawn.
In the event of default, the Credit Union may apply any
amounts in any accounts you are associated with, without
notice or legal process to the entire unpaid account
balance, costs, fees and other amounts due.
24. Application of Payment. The Credit Union reserves the
right to apply any payment made by you or any other loan
or debt which you now or in the future may owe the Credit
Union whether as maker or co-maker, co-signer or
guarantor. Each payment shall be applied as follow; rst,
to accrued costs of collection, including reasonable
attorney’s fees; second, to payments made by us to
preserve any collateral securing this or other Agreement
with us; third, to any other payments made by us and
provided in this Agreement or in any trust deeds, security
agreements, guaranties, liens, or pledges securing
payment of this Agreement; fourth, to any late chargers;
fth, to accrued interest; and sixth, to principal. This
application of payments applies even if you have made a
different designation on or with payment.
25. Special Introductory Terms. If your Cyprus Visa account was
opened after March 1, 2015, your introductory APR for
purchases will be 0% for the rst (6) billing cycles. Your
introductory APR for balance transfers will be 0% for the
rst six (6) billing cycles. These introductory rates are not
available for the Starter, Teen or Business accounts. REV
02/2015



HOME BANKING
Login ID

https://cypruscu.com/rates/visaagreement.shtml

LOGIN
12/13

4/28/2016

visaagreement



Register (../online/ rsttime-user.shtml)



APPLY NOW



BECOME A MEMBER



LOCATION FINDER





FAQ
(../library/ les/FrequentlyAskedQuestions.pdf)

PLANNING TOOLS

(https://cypruscu.com/membership/cra.shtml)

Federally insured by the National Credit Union Administration.

© 2016, Cyprus Credit Union.
Routing #: 324377202
Web Design by AVTEC (http://avtecmedia.com)

https://cypruscu.com/rates/visaagreement.shtml

13/13

